No. 21-

 

 

In the Supreme Court of the United States

DEANNA BROOKHART,
WARDEN, LAWRENCE CORRECTIONAL CENTER,
Petitioner,
v
KENNETH SMITH,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 7690 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021.

AGT

JANEELINORNOTZ

100 West Randolph Street
Chicago, Illinois 60601
(812) 814-5376
jane.notz@ilag.gov
Counsel for Petitioner
